1

1
IN THE SUPREME COURT OF ALABAMA
■m.

£

March 19, 2021
1200328
Ex parte Larry G. Coker. PETITION FOR WRIT OF CERTIORARI TO THE
COURT OF CRIMINAL APPEALS (In re: Larry G. Coker v. State of
Alabama) (Pell City Circuit Court: CC-07-285.61; Criminal Appeals :
CR-20-0180).
CERTIFICATE OF JUDGMENT
WHEREAS, the petition for writ of certiorari in the above referenced
cause has been duly submitted and considered by the Supreme Court of
Alabama and the judgment indicated below was entered in this cause on
March 19, 2021:
Writ Denied. No Opinion. Wise, J. - Parker, C.J., and Bolin, Sellers, and
Stewart, JJ., concur.
NOW, THEREFORE, pursuant to Rule 41, Ala. R. App. P., IT IS
HEREBY ORDERED that this Court's judgment in this cause is certified on
this date. IT IS FURTHER ORDERED that, unless otherwise ordered by this
Court or agreed upon by the parties, the costs of this cause are hereby taxed
as provided by Rule 35, Ala. R. App. P.
I, Julia J. Weller, as Clerk of the Supreme Court of Alabama, do hereby certify that the
foregoing is a full, true, and correct copy of the instrument(s) herewith set out as same appear(s)
of record in said Court.
Witness my hand this 19th day of March, 2021.

'-‘r

r
THE STATE OF ALABAMA - - JUDICIAL DEPARTMENT
THE ALABAMA COURT OF CRIMINAL APPEALS
CR-20-0180
Larry G. Coker v, State of Alabama (Appeal from Pell City Division, St. Clair Circuit
Court: CC07-285.61)

CERTIFICATE OF JUDGMENT
To the Clerk of the above noted Trial Court, Greetings:
WHEREAS, the appeal in the above-referenced cause has been
considered by the Court of Criminal Appeals; and
WHEREAS, an order was issued this date in said cause containing
the judgment indicated' below:

Appeal Dismissed
NOW, THEREFORE, pursuant to Rule 41 of the Alabama Rules of
Appellate Procedure and the order of dismissal, it is hereby
certified that the aforesaid judgment is final.
WitnesS.D. Scott Mitchell, Clerk
Court of Criminal Appeals, on this
the 19th day of March, 2021.

rX)i
Clerk
Court of Criminal Appeals
State of Alabama
cc: Hon. Billy R. Weathington, Jr., Circuit Judge
Hon. Annette Manning, Circuit Clerk
Larry G. Coker, Pro Se
Office of Attorney General

1

COURT OF CRIMINAL APPEALS
STATE OF ALABAMA
MARY B. WINDOM
Presiding Judge
J. ELIZABETH KELLUM
J. CHRIS McCOOL
J. WILLIAM COLE
RICHARD J. MINOR
Judges

D. Scott Mitchell
Clerk
Gerri Robinson
Assistant Clerk
(334) 229-0751
Fax (334) 229-0521

February 10, 2021

CR-20-0180
Larry G. Coker v. State of Alabama (Appeal from Pell City Division, St. Clair Circuit
Court: CC07-285.61)
ORDER
More than 14 days have passed since this Court issued an order in the above-referenced
cause allowing the appellant 14 days to pay the docket fee prescribed in Rule 35(A)(b) of
the Alabama Rules of Appellate Procedure or to provide proof that he/she had been
granted leave to proceed on appeal in forma pauperis or has a motion pending with the trial
court seeking leave to proceed on appeal in forma pauperis. In said order, the appellant
was placed on notice that his/her failure to comply within the allotted time would result in
this appeal being dismissed with prejudice.
Upon consideration of the above and because the appellant has failed to comply with the
above-referenced order within the allotted time and has failed to show good cause for such
failure, the Court of Criminal Appeals orders that this appeal be, and the same is hereby,
DISMISSED. Having this date dismissed this appeal, the Court further orders that the
certificate of judgment shall issue forthwith.
Done this the 10th day of February, 2021.

Mary B. WiFrdom, Presiding Judge
Court of Criminal Appeals
cc: Hon. Billy R. Weathington, Jr., Circuit Judge
Hon. Annette Manning, Circuit Clerk
Michele Seay, Court Reporter
Larry G. Coker, Pro Se
Office of Attorney General

>-

THE STATE OF ALABAMA - - JUDICIAL DEPARTMENT
THE ALABAMA COURT OF CRIMINAL APPEALS

CR-20-0180
Larry G. Coker v. State of Alabama (Appeal from Pell City Division, St. Clair Circuit
Court: CC07-285.61)

CERTIFICATE OF JUDGMENT
WHEREAS, the appeal in the above referenced cause has been duly submitted and
considered by the Court of Criminal Appeals; and
WHEREAS, the judgment indicated below was entered in this cause on February 10th

2021:
Dismissed for Failure to Pay Docket Fee
NOW, THEREFORE, pursuant to Rule 41 of the Alabama Rules of Appellate
Procedure, it is hereby certified that the aforesaid judgment is final.
Witness.D. Scott Mitchell, Clerk
Court of Criminal Appeals, on this
the 10th day of February, 2021.

7)
Clerk
Court of Criminal Appeals
State of Alabama
cc: Hon. Billy R. Weathington, Jr., Circuit Judge
Hon. Annette Manning, Circuit Clerk
Larry G. Coker, Pro Se
Office of Attorney General

(

;

THE STATE OF ALABAMA - - JUDICIAL DEPARTMENT
THE ALABAMA COURT OF CRIMINAL APPEALS

CR-15-1177
Larry G. Coker v. State of Alabama (Appeal from Pell City Division, St. Clair Circuit
Court: CC07-285.61)

CERTIFICATE OF JUDGMENT
WHEREAS, the appeal in the above referenced cause has been duly submitted and
considered by the Court of Criminal Appeals; and
WHEREAS, the judgment indicated below was entered in this cause on December
14th 2016:

Reversed and Remanded.
NOW, THEREFORE, pursuant to Rule 41 of the Alabama Rules of Appellate
Procedure, it is hereby certified that the aforesaid judgment is final.
Witness.D. Scott Mitchell, Clerk
Court of Criminal Appeals, on this
the 4th day of January, 2017.

Clerk
Court of Criminal Appeals
State of Alabama
cc: Hon. Bill Weathington, Circuit Judge
Hon. Annette Manning, Circuit Clerk
Larry G. Coker, Pro Se
Marc Alan Starrett, Asst. Atty. Gen.

V.

THE STATE OF ALABAMA - - JUDICIAL DEPARTMENT
THE ALABAMA COURT OF CRIMINAL APPEALS

CR-15-1177
Larry G. Coker, Appellant
vs.

State of Alabama, Appellee
Appeal from St. Clair Circuit Court, Pell City Division, No. CC-07-285.61
ORDER
Larry G. Coker appeals from the circuit court's summary denial of what Coker styled as a
Motion to Correct Sentence. The motion was filed in the county of Coker's conviction. The motion
raised issues cognizable in a Rule 32 petition, but it does not appear that it was treated as such by
the circuit court.
'"[T]he substance of a motion and not its style determines what kind of motion it is.'" Ex
parte Deramns. 882 So. 2d 875,876 (Ala. 2002)(quoting Evans v. Waddell, 689 So. 2d 23,26 (Ala.
1997)). Rule 32.4, Ala. R. Crim. P., states that a postconviction petition that seeks relief from a
conviction or sentence shall be treated as a proceeding under Rule 32. Here, Coker clearly
challenged his sentence, and thus, the petition should have been reviewed pursuant to the procedures
found in Rule 32, Ala. R. Crim. P.
ACCORDINGLY, it is ORDERED that the circuit court's judgment be REVERSED and the
cause REMANDED to the St. Clair Circuit Court (Pell City Div.) with directions, to set aside its
order on Coker's Motion to Correct Sentence and address the motion as a Rule 32 petition pursuant
to the procedures found in Rule 32, Ala. R. Crim. P. The motion, now considered Coker's Rule 32
petition, remains filed in the circuit court with its original filing date; however, it is within the circuit
court's discretion to require Coker to refile his petition on the form provided in the appendix to Rule
32, Ala. R. Crim. P., provided that the circuit court allows Coker a reasonable time (no less than 60
days) to refile a properly verified Rule 32 petition on the proper form.
MOREOVER, it is a jurisdictional requirement that Coker must pay the circuit court filing
fee associated with a Rule 32 petition, or request and be granted in forma pauperis status. See
Whitson v. State. 891 So. 2d 421 (Ala. Crim. App. 2004); Maxwell v. State. 897 So. 2d 426 (Ala.
Crim. App. 2004); Broadway v. State. 881 So. 2d 1068 (Ala. Crim, App. 2003), and Jackson v. State,
854 So. 2d 157 (Ala. Crim. App. 2002).

IP
/

Windom, P.J., and Welch, Burke, and Joiner, JJ., concur Kellum, J., not sitting.
Done this 14th day of December, 2016.

MARY BflCKEBLWINDOM, PRESIDING JUDGE
cc:

Hon. Bill Weathington, Judge
Hon.'Annette Manning, Clerk
V
Larry G. Coker, pro se
Marc Alan Starrett, Office of the Attorney General
Office of the Attorney General

i

Additional material
from this filing is
available in the
Clerk's Office.

